<html>
<title> - INVESTIGATING THE CULTURE OF CORRUPTION AT THE DEPARTMENT OF THE INTERIOR</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
   INVESTIGATING THE CULTURE OF CORRUPTION AT THE DEPARTMENT OF THE 
                               INTERIOR

=======================================================================

                           OVERSIGHT HEARING

                               before the

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         Tuesday, May 24, 2016

                               __________

                           Serial No. 114-45

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
       


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 20-278 PDF               WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001            
          
          
          
      

                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Louie Gohmert, TX                    Madeleine Z. Bordallo, GU
Doug Lamborn, CO                     Jim Costa, CA
Robert J. Wittman, VA                Gregorio Kilili Camacho Sablan, 
John Fleming, LA                         CNMI
Tom McClintock, CA                   Niki Tsongas, MA
Glenn Thompson, PA                   Pedro R. Pierluisi, PR
Cynthia M. Lummis, WY                Jared Huffman, CA
Dan Benishek, MI                     Raul Ruiz, CA
Jeff Duncan, SC                      Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Matt Cartwright, PA
Raul R. Labrador, ID                 Donald S. Beyer, Jr., VA
Doug LaMalfa, CA                     Norma J. Torres, CA
Jeff Denham, CA                      Debbie Dingell, MI
Paul Cook, CA                        Ruben Gallego, AZ
Bruce Westerman, AR                  Lois Capps, CA
Garret Graves, LA                    Jared Polis, CO
Dan Newhouse, WA                     Wm. Lacy Clay, MO
Ryan K. Zinke, MT
Jody B. Hice, GA
Aumua Amata Coleman Radewagen, AS
Thomas MacArthur, NJ
Alexander X. Mooney, WV
Cresent Hardy, NV
Darin LaHood, IL

                       Jason Knox, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                  Sarah Lim, Democratic Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                      LOUIE GOHMERT, TX, Chairman
             DEBBIE DINGELL, MI, Ranking Democratic Member

Doug Lamborn, CO                     Jared Huffman, CA
Raul R. Labrador, ID                 Ruben Gallego, AZ
Bruce Westerman, AR                  Jared Polis, CO
Jody B. Hice, GA                     Wm. Lacy Clay, MO
Aumua Amata Coleman Radewagen, AS    Vacancy
Alexander X. Mooney, WV              Raul M. Grijalva, AZ, ex officio
Darin LaHood, IL
Rob Bishop, UT, ex officio
                                 ------                                

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, May 24, 2016............................     1

Statement of Members:
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri..........................................     4
    Gohmert, Hon. Louie, a Representative in Congress from the 
      State of Texas.............................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Keable, Edward, Deputy Solicitor for General Law, Office of 
      the Solicitor, U.S. Department of the Interior, Washington, 
      DC.........................................................    10
        Prepared statement of....................................    11
        Questions submitted for the record.......................    12
    Kendall, Mary, Deputy Inspector General, Office of the 
      Inspector General, U.S. Department of the Interior, 
      Washington, DC.............................................     6
        Prepared statement of....................................     7
        Questions submitted for the record.......................     9
        Supplemental requested information submitted for the 
          record.................................................    17

Additional Materials Submitted for the Record:
    Oversight and Investigations Subcommittee, March 24, 2016 
      Letter to Secretary Jewell, U.S. Department of the Interior    30
    Connor, Michael L., Deputy Secretory of the Interior, April 
      29, 2016 Response Letter to Chairman Gohmert...............    31
    Director Jarvis, June 11, 2015 Handwritten note to Secretary 
      Jewell.....................................................    32
    List of documents submitted for the record retained in the 
      Committee's official files.................................    32
                                     



  OVERSIGHT HEARING ON INVESTIGATING THE CULTURE OF CORRUPTION AT THE 
                       DEPARTMENT OF THE INTERIOR

                              ----------                              


                         Tuesday, May 24, 2016

                     U.S. House of Representatives

              Subcommittee on Oversight and Investigations

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to notice, at 2:50 p.m., in 
room 1334, Longworth House Office Building, Hon. Louie Gohmert 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Gohmert, Labrador, Hice, and Clay.
    Mr. Gohmert. The Subcommittee on Oversight and 
Investigations will come to order.
    The subcommittee is meeting today to hear testimony on 
investigating the culture of corruption at the Department of 
the Interior. I am very grateful for the witnesses being here 
today, and I am so sorry for the delay in beginning the 
hearing. You don't get paid extra to be here for a hearing, and 
then to have to wait on us; but votes were scheduled, not 
something that either of us could control. I appreciate your 
patience.
    Under Committee Rule 4(f), any oral opening statements at 
hearings are limited to the Chairman and the Ranking Minority 
Member. Therefore, I ask unanimous consent that all other 
Members' opening statements be made part of the hearing record 
if they are submitted to the Subcommittee Clerk by 5:00 p.m. 
today.
    [No response.]
    Mr. Gohmert. Hearing no objection, so ordered.
    I will now recognize myself for 5 minutes for an opening 
statement.

 STATEMENT OF HON. LOUIE GOHMERT, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Gohmert. This committee has, time and again, received 
reports about employees at the Department of the Interior 
acting in an unethical manner, including astounding violations 
on the part of high-ranking officials in the National Park 
Service and the Bureau of Indian Affairs. We are meeting today 
to hear testimony about these incidents, and to learn more 
about how the Ethics Office operates at the Department of the 
Interior.
    Employees of the U.S. Government are bound by the highest 
standards of ethical conduct, and this Administration has 
painted itself as one that discourages unethical conduct, even 
requiring its employees to take an ethics oath. However, in 
practice, ethical misconduct, in what was supposed to be the 
most transparent administration in history, has been treated 
with a lack of accountability. Failure to make ethical conduct 
a priority, or even a baseline expectation, has fostered a 
culture in which serious violations have little consequence.
    We know there are thousands of hard-working and honest 
public servants throughout the agency. We are, however, 
convinced that the problems coming to our attention are not 
just isolated incidents. They are the result of a dismissive, 
even contemptuous, response to the violations of legal and 
ethical issues and rules on the part of the Department 
leadership.
    This committee issued a staff report in 2014 highlighting 
the troubling fact that ethics officers at Interior have been 
told not to provide advice to political appointees, and that 
obtaining clear, consistent ethics advice in a timely fashion 
was harder than it should be. The Administration further 
diminished the authority of the Ethics Office by making the 
head ethics official report to the Deputy Solicitor for General 
Law, which is contrary to Inspector General recommendations.
    Apparently, not much has changed since 2014. We know this 
because ethics violations keep happening at every level. In 
February, the Inspector General issued a disturbing report 
about Jonathan Jarvis, the Director of the National Park 
Service. Director Jarvis appears to have intentionally violated 
ethics rules by using his position to obtain a book deal, and 
then lied to the Secretary about it--that is the way it 
appears.
    Then he used the National Park Service logo on his book and 
marketed it in the National Park Service stores. After 
attempting to mislead the Inspector General in its 
investigation, Director Jarvis eventually admitted that he 
purposely chose not to seek guidance from the Ethics Office 
because he would probably not have been allowed to publish his 
book, which is still available for sale on the Park Service 
Foundation Web site.
    Funny that a book about values--its title is, by the way, 
``Guidebook to American Values and Our National Parks''--was 
written by a man who has shown so little regard for ethical 
behavior. It should be no surprise that Director Jarvis was 
heavily involved in mismanagement of a situation involving the 
Superintendent of the Grand Canyon National Park, who is 
retiring following an Inspector General investigation of sexual 
abuse at the park.
    Or let's look at the Director of the Bureau of Indian 
Education. In March, the Inspector General found that Charles 
Roessel improperly used his position to secure jobs for his 
girlfriend and his niece at the Bureau of Indian Education, in 
violation of several Federal laws. He even asked a human 
resources officer to change a job description and interfered in 
an interview panel, so that the unqualified individuals could 
be hired. This man was entrusted with educating approximately 
47,000 Native American students since 2012. Mr. Roessel's 
conduct is certainly not the example we want to set for those 
kids.
    Misconduct at the Department of the Interior is not limited 
to political appointees. In fact, some employees at all levels 
seem to believe it is OK to benefit from their position.
    The IG also recently found that Timothy Reid, Chief Ranger 
at Yellowstone National Park, and now Superintendent of Devils 
Tower National Monument, improperly used his Park Service 
apartment at Yellowstone since 2008, and lied about it on his 
housing paperwork.
    Rather than live in his apartment, as required, Mr. Reid 
instead had what the IG called ``a steady stream of guests'' 
stay there. On at least one occasion, his wife even offered use 
of the apartment as an overflow space for their nearby bed and 
breakfast operation, offering a French family use of the 
apartment in a proposed exchange that would have allowed Chief 
Ranger Reid to use their home in France. Unless Park Service 
wants corruption in its agency, it makes no sense to then 
promote this man to be Superintendent of Devils Tower National 
Monument with full knowledge that he had acted in such an 
unethical manner.
    The Department of the Interior is entrusted with great 
responsibility, and yet its leadership has failed to hold its 
officials accountable for basic common-sense ethical behavior. 
It is this type of behavior that has earned the outrage of 
Americans across the political spectrum, and that erodes our 
confidence that Interior can manage our natural resources 
effectively.
    I thank the witnesses again for coming today, and I look 
forward to your testimony.

    [The prepared statement of Mr. Gohmert follows:]
Prepared Statement of the Hon. Louie Gohmert, Chairman, Subcommittee on 
                      Oversight and Investigations
    This committee has, time and again, received reports about 
employees at the Department of the Interior acting in an unethical 
manner--including astounding violations on the part of high-ranking 
officials in the National Park Service and the Bureau of Indian 
Affairs.
    We are meeting today to hear testimony about these incidents and to 
learn more about how the Ethics Office operates at the Department of 
the Interior.
    Employees of the U.S. Government are bound by the highest standards 
of ethical conduct and this Administration has painted itself as one 
that discourages unethical conduct, even requiring its employees to 
take an ethics oath.
    However, in practice, ethical misconduct in the ``most transparent 
administration in history'' has been treated with a lack of 
accountability. The failure to make ethical conduct a priority--or even 
a baseline expectation--has fostered a culture in which serious 
violations have little consequence.
    I want to make clear that by using the phrase ``the culture of 
corruption'' we are certainly not impugning the work of all of the 
employees at Interior. There are thousands of hard working and honest 
public servants throughout the agency.
    We are, however, convinced that the problems coming to our 
attention are not just isolated incidents. They are the result of a 
dismissive--even contemptuous--response to violations of legal and 
ethical rules on the part of Department leadership.
    This committee issued a staff report in 2014 highlighting the 
troubling fact that ethics officers at Interior have been told not to 
provide advice to political appointees, and that obtaining clear, 
consistent ethics advice in a timely fashion was harder than it should 
be.
    And the Administration further diminished the authority of the 
Ethics Office by making the head ethics official report to the Deputy 
Solicitor for General Law, rather than directly to the Secretary--which 
is contrary to Inspector General recommendations.
    Apparently not much has changed since 2014--we know this because 
ethics violations keep happening at every level.
    In February, the Inspector General issued a disturbing report about 
Jonathan Jarvis, the Director of the National Park Service.
    The IG found that Director Jarvis intentionally violated ethics 
rules by using his position to obtain a book deal--and lied to the 
Secretary about it. And then he used the National Park Service logo on 
his book, and marketed it in National Park Service stores.
    After attempting to mislead the IG in its investigation, Director 
Jarvis eventually admitted that he purposely chose not to seek guidance 
from the Ethics Office because he would probably not have been allowed 
to publish his book--which, I might add, is still available for sale on 
the Park Service Foundation Web site.
    Funny that a book about values--its title is ``Guidebook to 
American Values and Our National Parks''--was written by a man who has 
shown so little regard for ethical behavior.
    It should be no surprise that Director Jarvis was heavily involved 
in mismanagement of a situation involving the Superintendent of the 
Grand Canyon National Park--who is retiring following an Inspector 
General investigation of sexual abuse at the park.
    Or how about the Director of the Bureau of Indian Education?
    In March, the IG found that Charles Roessel improperly used his 
position to secure jobs for his girlfriend and his niece at the Bureau 
of Indian Education--in violation of several Federal laws.
    He even asked a human resources officer to change the job 
descriptions and interfered in an interview panel so that the 
unqualified individuals could be hired.
    This man was entrusted with educating approximately 47,000 Native 
American students since 2012. Mr. Roessel's conduct is certainly not 
the example we want to set for those kids.
    Misconduct at the Department of the Interior is not limited to 
political appointees--in fact, some employees at all levels seem to 
believe it is OK to profit from their position.
    The IG also has recently found that Timothy Reid, Chief Ranger at 
Yellowstone National Park and now Superintendent of Devils Tower 
National Monument, improperly used his Park Service apartment at 
Yellowstone since 2008 and lied about it on his housing paperwork.
    Rather than live in his apartment, as required, Mr. Reid instead 
had what the IG called ``a steady stream of guests'' stay there.
    On at least one occasion his wife even offered use of the apartment 
as an overflow space from their nearby bed and breakfast operation--
offering a French family use of the apartment in a proposed exchange 
that would have allowed Chief Ranger Reid to use their home in France.
    Why would the National Park Service then promote this man to be 
Superintendent of Devils Tower National Monument with full knowledge 
that he had acted in such an unethical manner?
    The Department of the Interior is entrusted with great 
responsibility and yet its leadership has failed to hold its officials 
accountable for basic, common-sense ethical behavior. It is this type 
of behavior that has earned the outrage of Americans across the 
political spectrum, and that erodes our confidence that Interior can 
manage our natural resources effectively and responsibly.
    I thank our witnesses for coming here today and I look forward to 
your testimony.

                                 ______
                                 

    Mr. Gohmert. At this time the Chair now recognizes Mr. Clay 
for an opening statement.

 STATEMENT OF HON. WM. LACY CLAY, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MISSOURI

    Mr. Clay. Thank you, Mr. Chairman. And thank you for the 
opportunity to talk about a very important issue: ethics in the 
Department of the Interior.
    Ensuring ethical conduct in the workplace is important for 
everyone, but for those of us who serve the public, it is 
especially critical. Certainly the three individuals we will be 
talking about today did the wrong thing. Their actions are even 
more inexcusable since they are all high-ranking officials. 
They should not only follow the rules like everyone else, but 
they should set an example for the people that work under them 
and the American people that they serve. Everyone involved 
needs to be held accountable, and I hope we make sure that is 
the case while we are here today.
    That said, the title of today's hearing took me a little by 
surprise: ``Investigating the Culture of Corruption at the 
Department of the Interior.'' I daresay it is catchy, but does 
the wrongdoing of these three individuals warrant a title 
worthy of a Maury Povich sweeps week episode?
    I looked into these cases and into the agency in search of 
evidence of a culture of corruption. I am here to tell you that 
I found that evidence: one IG summary report found ``a culture 
of ethical failure,'' and a ``culture of substance abuse and 
sexual promiscuity.'' One employee pled guilty to a criminal 
charge. Employees engaged in illegal drug use and sexual 
intercourse with both subordinates and industry 
representatives.
    Employees accepted gifts and gratuities from oil and gas 
companies and, as the report says, displayed no remorse, not 
surprisingly, given their, shall we say, intimate involvement 
with the industry. Contracts were manipulated and conflicts of 
interest were rampant.
    In another series of cases, the Deputy Secretary of the 
Interior, the number two position in the entire Department, 
landed in prison for 5 months. He lied to the Senate about his 
relationship with a lobbyist who eventually went to prison for 
his own indiscretions. The Secretary herself resigned as 
investigations into the scandal began to heat up, and the 
scandal took down a sitting Congressman.
    Two different movies have already been made about it, but 
here is the thing--the culture that birthed those headline-
grabbing scandals all happened during the previous 
administration. Things seem to have changed. In contrast, the 
IG described the Department of the Interior under this 
administration, in her testimony, as ``a culture at Interior 
that, for the most part, is one populated by individuals who 
are committed to the mission and doing the right thing.''
    This hearing seems to be the latest in a growing list of 
attempts in this subcommittee to do little more than attack the 
Administration. 'Tis the season, I guess.
    We need to hear about the changes the Department is making 
to ensure the three cases before us are not repeated. The 
Department must have the resources and support it needs to 
ensure employees seek ethical consult when needed, but let's 
not pretend that a park ranger who let friends and family stay 
in his government home for which he paid rent is the same as 
Steven Griles, Gail Norton, Jack Abramoff, and the Minerals 
Management Service.
    We have seen a culture of corruption at the Department, and 
this isn't it.
    I yield back.
    Mr. Gohmert. I thank you. I will now introduce our 
witnesses.
    Ms. Mary Kendall is the Deputy Inspector General for the 
Office of the Inspector General at the U.S. Department of the 
Interior. Also, Mr. Edward Keable is the Deputy Solicitor 
General for General Law for the Office of Solicitor at the U.S. 
Department of the Interior.
    Now, let me remind the witnesses that, under our Committee 
Rules, oral statements must be limited to 5 minutes; but your 
entire written statement will be part of the record, regardless 
of whether or not you are able to complete it within 5 minutes.
    When the light goes from green to yellow, you have 1 minute 
remaining. When the light goes from yellow to red, your time is 
up, and then I will help you conclude, if you have not.
    The Chair at this time recognizes Ms. Kendall for her 
opening statement.
    Ms. Kendall, we are very grateful for your work and for 
your appearance here today. You may proceed.

STATEMENT OF MARY KENDALL, DEPUTY INSPECTOR GENERAL, OFFICE OF 
    THE INSPECTOR GENERAL, U.S. DEPARTMENT OF THE INTERIOR, 
                         WASHINGTON, DC

    Ms. Kendall. Thank you, Mr. Chairman and members of the 
subcommittee. Thank you for the opportunity to testify today on 
the important issue of behavioral culture at the Department of 
the Interior.
    This hearing highlights the vital role of the Office of 
Inspector General as an independent, objective body to 
investigate matters that ultimately violate public trust. 
Through our investigations we lay bare misconduct on the part 
of Federal employees, so they can be held accountable; advise 
those who are brave enough to bring this conduct to our 
attention; encourage others to do the same; and make 
transparent the consequences of misconduct.
    As you know, the OIG has a great deal of experience 
uncovering ethics and other conduct violations by Interior 
employees and officials. In my experience, however, the 
majority of Interior's 70,000 employees take the mission of the 
Department and their individual responsibilities very 
seriously.
    I remain convinced that, as a whole, those who engaged in 
wrongdoing are in the minority, although I do not diminish the 
misconduct we recently found on the part of the Director of the 
National Park Service, Director of Bureau of Indian Affairs, or 
the Chief Ranger at Yellowstone National Park. Unfortunately, 
misconduct by the few generates great notoriety and casts a 
shadow over the entire Department.
    With fewer than 80 investigators, we work with constrained 
resources. We have addressed this in part by capitalizing on 
Interior employees and others who are committed to the mission 
and doing the right thing. In fact, they are often quick to 
report wrongdoing to the OIG. Unfortunately, not all leadership 
in DOI fully supports their employees contacting us.
    There is a perception by employees in some of the bureaus 
that contacting the OIG to report wrongdoing places them in 
jeopardy of retaliation, and management often makes more effort 
to identify the source of a complaint than to explore whether 
the complaint has merit. More can be done at Interior to 
address employee misconduct and provide a clear message of what 
behavior is expected.
    Inspectors General do not have the authority to compel 
action within their agencies. To influence change, we rely 
primarily on our audits and investigations. To this end, we 
recently implemented a policy of making public our 
investigative reports, whether allegations are substantiated or 
not. Having nothing to hide and, as it turns out, much to gain 
by making our investigative results more transparent, we now 
publish all investigative results unless there is a compelling 
reason not to do so.
    To spur the Department into taking swifter and more 
effective action, we have also reduced the time for posting the 
results of administrative investigations on our Web site to 30 
days after providing the report to the Department. This holds 
the Department more accountable, and provides Congress and the 
public with more timely notice of our investigative results.
    These new practices appear to be having an impact. Working 
with the Deputy Secretary, Chief of Staff, and Solicitor, we 
have witnessed an increased effort to be more responsive and 
decisive in their actions regarding employee wrongdoing, and an 
improved tone at the top.
    Recently a bureau head strongly condemned conduct in a 
serious criminal matter, and encouraged bureau employees to 
report any concerns of potential criminal or ethical misconduct 
to ethics officials or the OIG without fear of retaliation for 
doing so. Similarly, two other bureau directors implemented 
policy requiring ethics training for all their employees in 
response to analysis and discussion between the OIG, bureau 
leadership, and ethics officials about allegations of 
wrongdoing by bureau employees.
    These are a few positive examples of efforts to curb 
misbehavior, but more is needed before the impact is seen 
throughout the Department.
    I reiterate my thanks to the subcommittee for holding this 
hearing, for giving these issues the attention they deserve, 
and for recognizing the need for transparency and 
accountability in this important arena. This concludes my 
prepared testimony, and I would be happy to answer any 
questions.
    [The prepared statement of Ms. Kendall follows:]
 Prepared Statement of Mary L. Kendall, Deputy Inspector General, U.S. 
                       Department of the Interior
    Mr. Chairman and members of the subcommittee, good afternoon. Thank 
you for the opportunity to testify today on the important issue of 
behavioral culture at the U.S. Department of the Interior (DOI). There 
are too many examples of bad behavior. Not just at Interior, but 
Government-wide. This hearing highlights the importance of bringing 
into the public view the vital role of the Office of Inspector General 
(OIG) as an independent, objective body to investigate matters that 
ultimately violate public trust. Through our investigations, we lay 
bare misconduct on the part of Federal employees so they can be held 
accountable, advise those who are brave enough to bring misconduct to 
the attention of the OIG or other responsible officials, encourage 
others to do the same, and make transparent the consequences of 
misconduct, providing deterrence from future misconduct.
    As you know, OIG has a great deal of experience uncovering ethics 
and other conduct violations by Interior employees and officials. For 
many years, we have had a specialized unit dedicated to investigating 
cases of ethical and other misconduct, particularly by high-ranking 
officials and others whose positions of trust make their misconduct 
particularly detrimental to the operations of the Department, the 
morale of its employees, and the reputation of Federal Government 
employees. Our specialized unit has investigated many instances in 
which DOI employees have engaged in behavior that fails to meet the 
standards of conduct that are expected of Federal Government employees.
    You may wonder how widespread the ethical lapses are, and what 
their impact is. In my experience, the majority of Interior's 70,000 
employees take the mission of the Department and their individual 
responsibilities very seriously. I remain convinced that, as a whole, 
those who engage in wrongdoing are in the minority.
    Yet after more than 16 years with the OIG, as much as I would like 
to say that I have seen it all, I am continually surprised by the 
variations of misconduct brought to our attention. Unfortunately, 
misconduct by those few receives notoriety and casts a shadow over the 
entire Department.
    That shadow looms large, especially following the recent release by 
the OIG of a series of investigative reports, including reports on 
violations of law, rule, or regulation by high-level officials within 
the National Park Service (NPS) and the Bureau of Indian Education 
(BIE).
    Blatant ethical violations by the NPS Director, made worse by his 
admission that he intentionally avoided seeking ethics guidance, 
conveys the message to employees that ethics rules are not important, 
perhaps even optional. Another egregious example is the former BIE 
Director who abused his position of authority to improperly influence 
the hiring of relatives and personal acquaintances in violation of the 
Merit System Principles. We learned that other employees knew of these 
improper actions, but did not report the violations, thinking it was 
accepted behavior, or if reported that nothing would be done.
    Our investigative reporting of the pattern and practice of sexual 
harassment at Grand Canyon National Park provided a glaring example of 
NPS management failing to take proper action when employees reported 
wrongdoing. Similarly, after receiving an investigative report on the 
Chief Ranger of Yellowstone National Park violating the rules on the 
use of Park housing, the Chief Ranger was transferred to another park 
and named Superintendent. The appearance of rewarding bad behavior is 
not the desired outcome--nor a proper deterrent.
    With fewer than 80 investigators, we work with constrained 
resources and can never detect all of the wrongdoing at Interior. We 
have addressed this in part by capitalizing on a culture at Interior 
that, for the most part, is one populated by individuals who are 
committed to the mission and doing the right thing. In fact, they are 
quick to report wrongdoing to the OIG. We were one of the first in the 
OIG community to create a Whistleblower Protection Program, one that is 
regularly referred to as a model by the Office of Special Counsel and 
other OIGs. Our Whistleblower Protection Program helps to advise, and 
thereby protect, those brave enough to shine a light on the wrongdoing 
they observe. In 2015 alone, the Whistleblower Protection Program has 
supported and protected well over 100 employees, contractors, or other 
individuals willing to come forward with allegations of fraud, waste, 
abuse, misconduct, or retaliation.
    Unfortunately, not all leadership in DOI fully supports their 
employees contacting the OIG to report potential wrongdoing. There is a 
pervasive perception by many employees in some bureaus that contacting 
the OIG to report wrongdoing places them in jeopardy of retaliation. We 
often learn that management makes more effort to identify the source of 
a complaint than to explore whether the complaint has merit. In some 
instances, efforts have been made to restrict the ability of employees 
to contact us. When we become aware of such incidents we have been able 
to successfully intervene; however, we seldom see corrective action 
taken against individuals who attempt to silence their employees or 
identify whistleblowers.
    More can be done at Interior to address employee misconduct and 
mismanagement. A pattern and practice of accountability begins at the 
top. Consistent messaging by senior leadership--or in other words, 
``the tone at the top''--must provide a clear message of what behavior 
is expected. We have encouraged Department leadership to demonstrate 
more support for those who serve in gatekeeper roles, such as 
contracting officers and human resource personnel. We are aware, 
however, that many gatekeepers feel undue pressure from managers to 
``make things happen'' regardless of rules and regulations.
    DOI does not do well in holding accountable those employees who 
violate laws, rules, and regulations. We see too few examples of senior 
leaders making the difficult decision to impose meaningful corrective 
action and hold their employees accountable. Often, management avoids 
discipline altogether and attempts to address misconduct by 
transferring the employee to other duties or to simply counsel the 
employee. The failure to take appropriate action is viewed by other 
employees as condoning misbehavior. I was recently briefed on a matter 
in which an employee was detailed to another agency--at the expense of 
Interior--in lieu of using proper performance management and 
progressive discipline to correct performance and conduct issues. I am 
told that in response to our inquiry concerning the paid detail, the 
approving senior leader replied that she agreed with the action and 
that it was ``expeditious and responsible.'' There is no question that 
transferring an employee who is considered disruptive out of the agency 
is more expedient than taking formal disciplinary action, but I do not 
consider it ``responsible.''
    Inspectors General do not have authority to compel action within 
their agencies. To influence change, we rely mostly on our audits and 
investigations. To this end, the OIG recently implemented a policy of 
making public essentially all of our investigative reports, whether 
allegations are substantiated or not. A little more than a year ago, we 
were called out by the media on the relatively small number of 
investigations that we did make public. In responding to that 
challenge, we realized that we were simply practicing what had been 
done in the past and following the practice of much of the IG 
community. Having nothing to hide, and, as it turns out, much to gain 
by making our investigative results more transparent, we reversed our 
policy and now publish all investigative results, unless there is a 
compelling reason not to do so.
    To spur the Department into taking swifter and more effective 
action, we have also recently instituted a practice of posting the 
results of our administrative investigations on our Web site 30 days 
after providing the report to the Department for review and action. 
With a 30-day public release date, we hold the Department accountable 
for prompt action and provide Congress and the public with more timely 
notice of our investigative results.
    These new practices appear to be having an impact. Working with 
Interior's Deputy Secretary, Chief of Staff, and Office of the 
Solicitor, we have witnessed an increased effort to be more responsive 
and decisive in their actions regarding employee wrongdoing, and an 
improved ``tone at the top.''
    As recently as February of this year, after my office alerted the 
Commissioner of the Bureau of Reclamation to a serious criminal matter 
involving a Reclamation employee, he immediately issued a memorandum to 
all Bureau employees condemning the criminal conduct. The memo also 
encouraged employees to report and discuss concerns of potential 
ethical lapses with ethics officials or the Office of Inspector 
General, reminding them that they need not fear retaliation for doing 
so.
    Within the past year, both the Bureau of Land Management and U.S. 
Geological Survey Directors implemented policy requiring ethics 
training for all their employees in response to analysis and discussion 
between the OIG, bureau leadership, and ethics officials about 
allegations of wrongdoing by bureau employees.
    These are a few positive examples of efforts to curb misbehavior, 
but much more of this kind of action--as well as prompt, appropriate 
disciplinary action in response to OIG reports of misconduct--is needed 
before the impact is seen throughout the Department.
    I reiterate my thanks to the subcommittee for holding this hearing, 
for giving these issues the attention they deserve, and for recognizing 
the need for transparency and accountability in this important arena.
    This concludes my prepared testimony. I would be happy to answer 
any questions that members of the subcommittee may have.

                                 ______
                                 

 Questions Submitted for the Record by Representative Gohmert to Mary 
  Kendall, Deputy Inspector General, Office of the Inspector General, 
                    U.S. Department of the Interior
    Question 1. You stated that you were working with the Designated 
Ethics Agency Official to provide agency-wide ethics training. Please 
describe any progress you have made in that effort.

    Answer. OIG has regular discussions with U.S. Department of the 
Interior (DOI) ethics officials. In those discussions, we encouraged 
DOI to become the first cabinet-level Department to require ethics 
training for all its employees. While we can encourage DOI to establish 
comprehensive ethics training, OIG does not hold the authority to 
implement such a program or to require the Department to do so. DOI 
must take the initiative to support and implement such a comprehensive 
ethics program.
    Our OIG ethics officer meets monthly with other DOI ethics 
officers, and ethics training is a frequent subject discussed at these 
meetings. We have also met with senior Department officials to discuss 
whether ethics training can be expanded to reach all non-seasonal DOI 
employees. Under Office of Government Ethics requirements, only 
financial disclosure filers are required to receive annual training, 
but the Department's Ethics Office periodically provides ethics 
training that is available to all Department personnel. Our concern is 
that many employees do not avail themselves of this training because it 
is not required.
    In addition to the OIG, the following offices and bureaus have 
stated that they require annual--or at least periodic--ethics training 
for their employees, even those who do not file financial disclosure 
forms:

    <bullet> Office of Natural Resources Revenue;

    <bullet> Bureau of Land Management (all employees except seasonal 
            firefighters);

    <bullet> Bureau of Safety and Environmental Enforcement;

    <bullet> Office of Surface Mining;

    <bullet> Bureau of Ocean Energy Management; and

    <bullet> U.S. Geological Survey

    The Department's Acquisitions and Property Management Division has 
also proposed that all series 1102 and series 1105 contract specialists 
be required to file a confidential financial disclosure form, which 
would in turn require those individuals to receive annual ethics 
training.

                                 ______
                                 

    Mr. Gohmert. Thank you very much.
    At this time the Chair now recognizes Mr. Keable for his 
testimony.

 STATEMENT OF EDWARD KEABLE, DEPUTY SOLICITOR FOR GENERAL LAW, 
   OFFICE OF THE SOLICITOR, U.S. DEPARTMENT OF THE INTERIOR, 
                         WASHINGTON, DC

    Mr. Keable. Chairman Gohmert and members of the 
subcommittee, thank you for the opportunity to appear before 
you today. My name is Ed Keable and I am the Deputy Solicitor 
for General Law at the Department of the Interior.
    I have been a career public servant for over 25 years, 
beginning as a lawyer in the U.S. Army Judge Advocate General's 
Corps. I have been the Department's Deputy Solicitor for 
General Law since 2012. While serving in the Army, I learned 
the value of public service and the importance of providing 
high-quality and thoughtful legal counsel. Since my arrival at 
the Department, I have proudly served both Republican and 
Democratic administrations with equal dedication to excellence, 
with the goal of ensuring that the Department pursues its great 
mission in a lawful and ethical manner.
    As the Deputy Solicitor for General Law, I am responsible 
for managing the Division of General Law in the Solicitor's 
Office, the Office of Ethics, and the legal work of the 
Office's regional and field offices.
    A part of my area of legal practice is also providing legal 
advice to senior leaders in the Department in response to 
reports of investigation from the Office of Inspector General. 
In that capacity, I give counsel on whether and how subjects of 
OIG reports of investigation might be held accountable, and 
whether and how bureaus and offices might improve processes 
addressed in those reports.
    The Department's ethics program is also located within the 
Office of Solicitor, and is sound, robust, and serves the 
Department well. The Ethics Office has been recognized by the 
Office of Government Ethics for leading a strong program. The 
Department Ethics Office is made up of a talented group of 
ethics attorneys and professional staff headed by the 
Department's Designated Agency Ethics Officer (DAEO). It is 
important to note that the Ethics Office is not an enforcement 
or investigatory office, but one that provides ethics advice, 
counseling, and education to the Department's employees.
    Each bureau in the Department has the regulatory 
responsibility to manage its own ethics programs. Bureau 
directors are tasked with the responsibility of managing the 
ethics programs in their bureaus, and they rely on dedicated 
ethics professionals to assist them in this important work.
    The Ethics Office works closely with the bureau ethics 
programs to ensure that they are operating to the standards 
established by OGE. The Ethics Office audits bureau ethics 
programs. Using the information from these audits, from OIG 
reports, and from day-to-day engagements Ethics Office staff 
have with clients and bureau ethics professionals, the Ethics 
Office continually looks for opportunities to improve the 
Department's ethics program.
    Some examples of improvements that the Department has made 
to its ethics program in recent years include: the 
establishment of full-time deputy ethics counselors, or DECs, 
in every bureau at the GS-14 level or higher; elevating the 
reporting level of the DECs in the bureaus; increasing training 
opportunities for both ethics professionals and ethics 
employees generally; increasing organizational ties between the 
Ethics Office and bureau ethics programs; and strengthening 
recusal processes, financial disclosure, and advise and 
counseling processes.
    The constructive relationship between the Ethics Office and 
the Inspector General's office is critical to the success of 
both organizations. The Interior DAEO has access to the 
Inspector General's office for referral of possible ethics 
breaches. The Inspector General's investigators have access to 
the Ethics Office staff as subject matter experts in their 
investigations that touch on ethics issues. Relationships like 
these, between these critically important offices, serve to 
strengthen the Department's ethics program.
    The Department is committed to promoting a culture of 
ethics within the Department and to providing its employees 
with a strong ethics program.
    I look forward to any insights members of the subcommittee 
might have to assist the Department in meeting this important 
goal. Thank you, and I am happy to answer any questions you 
might have.
    [The prepared statement of Mr. Keable follows:]
Prepared Statement of Edward Timothy Keable, Deputy Solicitor--General 
                  Law, U.S. Department of the Interior
    Chairman Gohmert, Ranking Member Dingell, members of the 
subcommittee, thank you for the opportunity to appear before you today. 
My name is Ed Keable and I am the Deputy Solicitor for General Law at 
the Department of the Interior (Department).
    I have been a career public servant for over 25 years, beginning as 
a lawyer in the U.S. Army Judge Advocate General's Corps. I have been 
the Department's Deputy Solicitor for General Law since 2012. While 
serving in the Army, I learned the value of public service and the 
importance of providing high-quality and thoughtful legal counsel. 
Since my arrival at the Department, I have proudly served both 
Republican and Democratic administrations with equal dedication to 
excellence, with the goal of ensuring that the Department pursues its 
great mission in a lawful and ethical manner.
    As the Deputy Solicitor for General Law, I am responsible for 
managing the Division of General Law in the Solicitor's Office, the 
Office of Ethics, and the legal work in the Office's regional and field 
offices. As would be expected by such a large agency with diverse 
missions, the general legal work carried out in the Solicitor's Office 
is equally as diverse, and includes providing counsel on administrative 
matters that may include Departmental organization and delegated 
authorities, appropriations law, information law, contracting and 
procurement issues, grants, patents, copyrights, trademarks, property 
management, land titles, records management, personnel and civil rights 
matters, issues involving the Insular Areas administered by the 
Department, and issues involving Native Hawaiians, to name just a few.
    A part of my area of legal practice also includes providing legal 
advice to senior leaders in the Department in response to reports of 
investigation from the Office of Inspector General. In that capacity, I 
give counsel on whether and how subjects of OIG reports of 
investigation might be held accountable and whether and how bureaus and 
offices might improve processes addressed in those reports.
    The Department's ethics program is also located within the Office 
of the Solicitor, and is sound, robust, and serves the Department well. 
The Department Ethics Office (DEO) has been recognized by the Office of 
Government Ethics (OGE) for leading a strong program.
    The DEO is made up of a talented group of ethics attorneys and 
professional staff headed by the Department's Designated Agency Ethics 
Officer (DAEO). It is important to note that the DEO is not an 
enforcement or investigatory office, but one that provides ethics 
advice, counseling and education to the Department's employees. The DEO 
also manages the financial disclosure reporting process.
    Each bureau in the Department has the regulatory responsibility to 
manage its own ethics programs. Bureau directors are tasked with the 
responsibility of managing the ethics programs in their bureaus and 
they rely on dedicated ethics professionals to assist them in this 
important work. The DEO works closely with the bureau ethics programs 
to ensure they are operating to the standards established by OGE.
    The DEO audits bureau ethics programs. Using the information from 
these audits, from OIG reports, and from day-to-day engagements DEO 
staff has with clients and bureau ethics professionals, the DEO 
continually looks for opportunities to improve the Department's ethics 
program. Some examples of improvements that the Department has made to 
its ethics program in recent years include: the establishment of a 
full-time deputy ethics counselors (DEC) in every bureau at the GS-14 
level or higher; elevating the reporting level of the DECs in the 
bureaus; increasing training opportunities for both ethics 
professionals and employees generally; increasing the organizational 
ties between the DEO and the bureau ethics programs; and strengthening 
recusal processes, financial disclosure, and advice and counseling 
processes. The DEO maintains a general supervisory role in relation to 
the bureau ethics programs, has review and concurrence authority for 
the hiring the DECs, sets the performance standards for the DECs, and 
has input in the performance ratings of the DECs.
    The constructive relationship between DEO and OIG is critical to 
the success of both organizations. The Interior DAEO has access to the 
OIG for referral of possible ethics breaches. The OIG investigators 
have access to the DEO staff as subject-matter experts in OIG 
investigations that touch on ethics issues. Relationships like these, 
between these critically important offices, serve to strengthen the 
Department's ethics program.
    The Department is committed to promoting a culture of ethics within 
the Department and to providing its employees with a strong ethics 
program. I look forward to any insights members of the subcommittee 
might have to assist the Department in meeting these important goals. 
Thank you and I am happy to answer any questions you might have.

                                 ______
                                 

Questions Submitted for the Record by Representative Gohmert to Edward 
Keable, Deputy Solicitor for General Law, Office of the Solicitor, U.S. 
                         Department of Interior
    Question 1. You stated that you had a meeting scheduled the day 
after the hearing with OGIS to discuss the FOIA issues and you agreed 
to provide information about that meeting. Please provide about the 
purpose and goals of that meeting. Please describe discussions held 
during the meeting, and the outcome of the meeting.

    Answer. OGIS Deputy Director Nikki Gramian and I met telephonically 
on May 25, 2016. The purpose of the meeting was to address concerns Ms. 
Gramian had raised with me about the responsiveness of the Department 
of the Interior's (DOI) FOIA Appeals Office to OGIS and the anticipated 
length of time for finalizing the appeals. During the meeting, I 
explained that the FOIA Appeals Office had recently undergone staffing 
challenges that I was working with the FOIA Appeals Officer to address. 
I explained that I expected OGIS's concerns regarding responsiveness to 
be resolved by that effort. DOI did address the FOIA Appeals Office 
staffing and that did help to resolve OGIS's concerns. I had a follow-
up conversation with Ms. Gramian on or about October 19, 2016, to 
confirm that she was getting the information she subsequently sought 
from the FOIA Appeals Office and she confirmed that she was pleased 
with their responsiveness.

    Question 2. What day did you decide to schedule that meeting?

    Answer. Beginning on May 19, 2016, OGIS Deputy Director Nikki 
Gramian and I had an email exchange discussing an opportunity to meet 
telephonically. We settled on a meeting time of May 25, 2016, on May 
23, 2016.

    Question 3. Please provide, as you agreed to do in the hearing, 
written responses from your Department to OGIS.

    Answer. As indicated in the prior answers, OGIS and I discussed the 
issues raised and I believe that we have addressed those issues. No 
written response to the incoming letter was sent to OGIS.

    Question 4. Please provide detailed information about ethics 
training programs and requirements now in effect at DOI.

    Answer. The DOI Ethics training program meets and exceeds the 
Office of Government Ethics (OGE) requirements. OGE requires all 
financial disclosure filers (OGE Form 278e and 450) to receive annual 
ethics training and all new employees to receive ethics orientation 
training. DOI provides annual ethics training, ethics orientation 
training, and specific ethics topic training on-line, in-person and via 
webinars on a regular basis.

                                 ______
                                 

    Mr. Gohmert. Thank you very much. We appreciate both your 
testimonies here today. To begin questioning, I recognize 
myself for 5 minutes.
    [Slide]
    Mr. Gohmert. Ms. Kendall, Director Jarvis sent a 
handwritten note to the Secretary after his book was published. 
We can see from the screen there that his note states that he 
wrote the book ``at the request of the publisher, Eastern 
National.'' To your knowledge, is that true?
    Ms. Kendall. To my knowledge, Mr. Jarvis was the one who 
came up with the idea for the book, not Eastern National.
    Mr. Gohmert. How did your team determine that Director 
Jarvis lied about approaching Eastern National to obtain the 
book deal?
    Ms. Kendall. I believe that they made this determination 
through interviews with Mr. Jarvis, with representatives at 
Eastern National, and a review of email messages between the 
two.
    Mr. Gohmert. And his note says, ``I wrote this on my own 
time,'' but was that statement true?
    Ms. Kendall. I don't believe we found that statement not to 
be true, because we found that he did not write it on work 
time. He wrote most of it at home.
    Mr. Gohmert. OK. Then Director Jarvis wrote in there to 
Secretary Jewell, the head of Interior, that there are no 
ethics issues. Is that statement true?
    Ms. Kendall. I believe that is not accurate. It was his 
assumption, but we found differently.
    Mr. Gohmert. And what did you find?
    Ms. Kendall. We found that, really, he should have started 
his whole process by consulting the Ethics Office about the 
propriety of writing this book, about any number of issues, 
including copyright and publication issues. Again, he should 
have consulted the Office of Ethics, and probably the 
Solicitor's Office generally, in terms of the appropriateness 
of writing, publishing, and partnering with Eastern National in 
distributing the book.
    Mr. Gohmert. Do you know why he did not consult with ethics 
folks first?
    Ms. Kendall. I believe he told our investigators that he 
intentionally chose not to consult the Ethics Office, because 
he was afraid it would either slow down or thwart his efforts 
to write the book.
    Mr. Gohmert. Does it concern you that that book was then 
made for sale through the Park Service, of which he is 
Director?
    Ms. Kendall. It was made available for sale, as I 
understand it, through Eastern National, which is a 
concessionaire of the Park Service.
    Mr. Gohmert. Let's touch on that. Eastern National, you 
mentioned they are a concessionaire. What does that entitle 
them to do, and how do they obtain that position?
    Ms. Kendall. I may be mistaken about the term 
``concessionaire.'' They are associated with the National Park 
Service, and my understanding is that they make the book 
available maybe through a concessionaire or someone who sells 
things on National Park property.
    Mr. Gohmert. So the Park Service, then, has authority to 
make contracts with individual contractors, individual 
companies, to allow them to sell or provide services or goods 
on Park Service property. Is that correct?
    Ms. Kendall. That is my understanding, yes.
    Mr. Gohmert. And so, as Director of the Park Service, it 
sure would appear that he could have a lot to do with who gets 
contracts, who doesn't get contracts; and yet he used that 
position to get Eastern National to publish the book, and it 
raises other issues.
    Mr. Keable, let me ask you. Director Jarvis is quoted in 
his report acknowledging the risk he was willing to take going 
around the Solicitor's Office. From what we can see, there was 
no risk because he was caught and there have been no real 
consequences. Has Director Jarvis affected the credibility of 
the ethics program at Interior, in your opinion?
    Mr. Keable. Thank you for that question, Mr. Chairman. I 
disagree with the statement that there were no consequences for 
what he did. The Director was disciplined for----
    Mr. Gohmert. And how was he disciplined?
    Mr. Keable. He was issued a letter of reprimand. His 
authority to manage the National Park Service ethics program 
was removed from him, and he is required to take ethics 
training on a monthly basis for the rest of the term.
    Mr. Gohmert. OK. Well, from what I understand of people 
involved in supervising ethics, it is a thankless job and most 
folks are delighted to get rid of it.
    My time is expired. The Chair recognizes the Ranking 
Member, Mr. Lacy Clay, from Missouri.
    Mr. Clay. Ms. Kendall, can you please tell us how your 
office was made aware of the alleged violations in each of the 
three cases we are discussing here today?
    Ms. Kendall. In Mr. Jarvis's case, the information was 
brought directly to my attention by the Chief of Staff, the 
Secretary's Chief of Staff, and the Ethics Office.
    In regard to Mr. Roessel, we received a complaint from an 
employee within the Bureau of Indian Education.
    And, my recollection in terms of the Chief Ranger at the 
Grand Canyon is that we also received a complaint from inside--
complainants in the park.
    Mr. Clay. So you are saying that all three cases were 
reported by another DOI employee.
    Ms. Kendall. I can say that with assuredness relative to 
Mr. Roessel and Mr. Jarvis. That is my recollection regarding 
Mr. Reid.
    Mr. Clay. OK. If DOI employees are the ones who are 
bringing ethical violations to the Inspector General's 
attention, that sounds more like a culture of doing the right 
thing to me. You don't have to answer that; it was rhetorical.
    Anyway, the Deputy Secretary of the Interior, under the 
previous administration, Mr. Steven Griles, spent 5 months in 
prison because he lied to Senate investigators about his 
involvement with convicted lobbyist, Jack Abramoff. In addition 
to Mr. Griles's indiscretion, Secretary Norton herself resigned 
from the Department before investigations into her involvement 
could begin.
    We have seen time and time again that an organization's 
culture is shaped at the top. In your testimony, you mention 
that the current leadership at Interior, including the Deputy 
Secretary, has been working with you to be more responsible, 
more responsive, and decisive in their actions regarding 
employee wrongdoing. What kinds of things are you working on, 
and are you moving toward or away from a more ethical 
Department of the Interior?
    Ms. Kendall. Well, I would hope that we are always working 
toward a more ethical department at Interior. As for the things 
that I referred to in my testimony, we have had a much more 
open and engaging relationship at the Deputy Secretary, Chief 
of Staff, and the Solicitor's Office level, where we do share 
information and concerns with the Office of Ethics. I raise 
issues to the Deputy Secretary and Chief of Staff when I am 
aware of them, and they feel comfortable doing it for our 
office, as well.
    Mr. Clay. Do you get many executive-level inquiries about 
what are best practices--I mean which way they--or those that 
are seeking direction from your office, do you see more of 
that?
    Ms. Kendall. I can really only speak to one conversation 
that I had with the Secretary herself when she came on board, 
quite early in her tenure. She asked me my advice as to what to 
do, she, coming from the private sector, to deal with all the 
rules that applied to Federal Government employees. My very 
simple answer was to make best friends with the ethics 
department.
    Mr. Clay. Good response. Despite the three incidents we are 
discussing here today, would you agree that the vast majority 
of the employees at Interior take the mission of the Department 
and their individual responsibilities very seriously?
    Ms. Kendall. Yes, sir.
    Mr. Clay. OK. All right. You have answered all of my 
questions. Mr. Chair, I will yield back.
    Mr. Gohmert. Thank you. The Chair recognizes Mr. Labrador 
for 5 minutes.
    Mr. Labrador. Thank you, Mr. Chairman.
    Ms. Kendall, Director Jarvis admitted to your team that he 
had been in trouble many, many times for not asking permission. 
In 2008, the IG found that then-Superintendent to Mount Rainier 
National Park, David Uberuaga--I think it is Uberuaga--had sold 
his home at an inflated price to a park concessionaire in an 
obvious conflict of interest. You referred his case for Federal 
prosecution.
    When the sale was arranged, who was Mr. Uberuaga's boss in 
the region and his predecessor at Mount Rainier?
    Ms. Kendall. I do not know that, sir.
    Mr. Labrador. It was John Jarvis.
    Ms. Kendall. OK.
    Mr. Labrador. When the case was referred for prosecution, 
who was the regional director in charge of Mr. Uberuaga?
    Ms. Kendall. I am going to venture a guess that it was Mr. 
Jarvis.
    Mr. Labrador. Correct. To your knowledge, was Mr. Uberuaga 
ever prosecuted?
    Ms. Kendall. He was not prosecuted.
    Mr. Labrador. Was he fired by Mr. Jarvis?
    Ms. Kendall. No.
    Mr. Labrador. In fact, after the incident, he was promoted 
to Superintendent of Grand Canyon National Park, one of the 
most coveted positions in the Park Service. Who was the 
Director of the Park Service that approved this prestigious 
promotion?
    Ms. Kendall. I don't know for a fact, sir, but I am going 
to guess that it was Mr. Jarvis.
    Mr. Labrador. Yes, it was. I guess we see a pattern here, 
right?
    Recently the IG revealed the disturbing pattern of sexual 
harassment that was known to leadership at Grand Canyon 
National Park. Who was the Superintendent of Grand Canyon 
National Park at the time the harassments occurred?
    Ms. Kendall. Mr. Uberuaga.
    Mr. Labrador. Has he been fired?
    Ms. Kendall. No. As far as I know, he resigned effective 
last week.
    Mr. Labrador. OK. Effective last week, but was he offered 
before that a transfer to Washington, DC?
    Ms. Kendall. I do not know.
    Mr. Labrador. My information is that he was. Do you know 
who offered that transfer?
    Ms. Kendall. I don't.
    Mr. Labrador. Mr. Jarvis. And, as you just indicated, he 
has decided to retire instead of accepting the transfer.
    Ms. Kendall, in 2008, who was the Regional Director over 
Point Reyes National Seashore when, as the IG reported, the 
Park Service misrepresented research in order to kick a 
historic oyster farm out of the park?
    Ms. Kendall. I believe it was Mr. Jarvis at the time.
    Mr. Labrador. To your knowledge, did Mr. Jarvis fire anyone 
for the deception at Point Reyes?
    Ms. Kendall. I don't have any recollection of that 
happening, sir.
    Mr. Labrador. I believe the answer is no, as far as we can 
tell.
    Who was the Director of the Park Service that ultimately 
kicked the oyster farm out of the park, using the fictitious 
data?
    Ms. Kendall. I believe it was Mr. Jarvis who terminated the 
lease with the oyster farm.
    Mr. Labrador. Correct. Ms. Kendall, did your investigation 
determine whether or not Director Jarvis worked on his book 
while staying at Brinkerhoff, the exclusive National Park 
Service VIP lodge in the Tetons?
    Ms. Kendall. I don't believe our investigation determined 
that he worked on it while he was there.
    Mr. Labrador. OK. Ms. Kendall, can you tell us about any 
other investigations you have conducted that involve Director 
Jarvis?
    Ms. Kendall. None come to mind directly, sir, but I would 
be glad to get back to you on that.
    Mr. Labrador. I am concerned about this pattern of ethical 
lapses and lack of accountability. I think it is very 
disturbing to our constituents. I am concerned--you know, this 
is the second hearing that I have today about unethical 
behavior in an administration office; and many people say, 
``Well, worse things happened under previous administrations,'' 
and I think that is true.
    But what is really interesting is that a lot of those 
investigations happened in Republican administrations, and it 
was Republicans that were willing to actually investigate the 
unethical relationship. It is interesting to me that Democrats 
do not seem particularly interested in investigating unethical 
behavior on the part of their administration.
    Has the Department of the Interior fired anyone, to your 
knowledge, because of this unethical behavior?
    Ms. Kendall. The ones we are talking about today, as far as 
I know, the answer is no.

    [Information requested by Rep. Labrador from Ms. Kendall 
follows:]

                United States Department of the Interior

                         NATIONAL PARK SERVICE

                          Washington, DC 20240

                                               July 8, 2010        

Memorandum

To:   Assistant Inspector General for Investigations, Office of 
Inspector General

From: Daniel N. Wenk--for the Director

Subject: Jeffery Burton, OIG Case File No. OI-NM-1O-0299-I

    This is in response to your May 27, 2010, Management Advisory 
recommending a broader ethics training policy at the National Park 
Service and the implementation of a conflict of interest and non-
disclosure statement prior to the commencement of financial assistance 
evaluation panels. These recommendations stem from an alleged conflict 
of interest pertaining to Jeffery Burton, Archeologist, in the Pacific 
West Region, who served on a grant review panel for the Intermountain 
Region.
    While the Service forwarded to your office the alleged conflict of 
interest matter as required by 28 U.S.C. 535, your office noted it was 
not expeditiously done. The holdup was due to the gathering of 
background information surrounding the allegation which resulted in the 
unfortunate delay.
    In the intervening period, the Service took steps to mitigate the 
concerns stemming from the alleged conflict of interest by rescoring 
the grant proposal without Mr. Burton's input for the project, 
``Multidisciplinary Research and Education at Honouliuli Interment 
Camp'' where he was listed as a consultant by the University of Hawaii. 
Furthermore, the University of Hawaii, who was awarded the grant, was 
informed by the Service that no Federal funds could be used to pay for 
Mr. Burton's work on the grant.
    As a result of Mr. Burton's case, your office raised a concern 
about employees' understanding of the ethics rules and regulations and 
whether they could benefit from increased training. The Service is 
aware of the ethics training regulations at 5 CFR 2638 and the 
requirement for initial ethics orientation of employees coming to the 
Service and the mandatory annual ethics training requirement for 
financial disclosure fliers as this training data is reported in the 
annual Office of Government Ethics questionnaire.
    Every year the Service uses several training methods to train not 
only those employees with a mandatory training requirement as a result 
of being a financiaI disclosure filer, but encourages non-filers to 
attend as well. This year, the Service released into the DOI Learn 
training system several on-line ethics training modules it had 
developed to help educate employees. Furthermore, a senior member of my 
ethics staff was involved with the making and taping of the ``DOI New 
Entrant Ethics Orientation.'' A DVD copy of this taping was sent to all 
field ethics offices for use in meeting the orientation requirement and 
is attached for your information.
    The Service is also actively participating with the Department 
Ethics Office on several of its efforts to develop a stellar ethics 
program as envisioned by Secretarial Order 3288, ``Enhancing and 
Promoting an Ethical Culture within the Department of the Interior.'' 
To date, this has included attending the Assistant Ethics Counselor 
Summit meeting on June 15-17, 2010, to brainstorm program ideas and 
volunteering to participate in the first Departmental assessment next 
month in Denver, Colorado, where assistance will be given to local 
ethics officials on running their programs and where employees can 
express their ethics concerns at ``town hall meetings.'' The Service 
will have its ``town hall meeting'' on July 20, 2010. While the Service 
assesses the vitality of its ethics program through these avenues, it 
will revisit your recommendation that all employees must receive ethics 
training.
    The Service is adopting your recommendation to develop processes 
and a conflict of interest and non-disclosure statement prior to the 
commencement of financial assistance evaluation panels and this 
undertaking is being headed by the Associate Director, Business 
Services. A draft copy is attached for your information. In the 
meantime, the Intermountain Region has already implemented steps to 
help prevent what occurred with Mr. Burton from happening again and a 
copy of their requirements is attached for your information. Please 
note such procedures are already in place for contract panels.
    The Service is committed to fostering the highest ethical standards 
for our employees. If you have any questions, please contact my office.

Attachment

                                 *****

To:   Peggy Moran-Gicker, Ethics Program Manager

From: Greg Kendrick, Assistant Regional Director, Partnerships and 
External Relations

Re: Review Panel Protocols

    The NPS, Intermountain Region (IMR), in an effort to ensure that 
grants are awarded in a fair and ethical manner, has implemented 
protocols for all regional review panels involved in the evaluation of 
grant applications. These protocols, outlined below, were implemented 
prior to the 2010 Japanese American Confinement Sites (JACS) Grant 
Program Review Panel, which convened at the NPS Intermountain Regional 
Office during the week of March 15, 2010. The protocols are:
Required Ethics Training Session for all Review Panels
    Each review panel meeting must begin with a one-hour training 
session on DOI ethics laws and regulations. As occurred with the 2010 
Japanese American Confinement Sites review panel, an Employees 
Relations Officer, with appropriate level of ethics training, will 
conduct this ethics training session for the review panelists, which 
will be held before the review panelists begin their review of the 
project proposals. The session will provide an overview of ethics in 
the federal government, clarify the roles and responsibilities of the 
review panelists, and specifically address how panelists can identify 
and avoid a potential conflict of interest in their review of the grant 
project proposals. The session will discuss how DOI regulations 
prohibits employees from using their public office for private gain or 
for the private gain of family or friends. The training will include a 
discussion of 18 U.S.C., Sec. 208 as well as 5 C.F.R. Section 2635.502. 
As part of that training, the panelists must agree to recuse themselves 
from reviewing any proposals for which there may be a potential 
conflict of interest. As in the case of the 2010 JACS review panel, 
each review panelists will be provided a copy of the Department of the 
Interior Ethics Guide (November 2008) as part of the training, and must 
sign a ``Confidentiality and Conflict of Interest Certificate'' prior 
to the beginning of the review process.
Required Ethics Training for all Grants Program Staff
    All NPS staff involved in the implementation and management of 
grants must have annual training in ethics. In the case of the JACS 
program, JACS Program Manager, Kara Miyagishima; JACS Program Staff 
Member, Alexandra Hernandez; Heritage Partnerships Program Manager, 
Christine Whitacre; and Assistant Director, External Relations and 
Partnerships, Greg Kendrick have completed such training.
Enforcement of Ethics Rules during Review Panels
    The Grants Program Manager, or a qualified member of the program 
staff, must be in attendance during the entire review panel process, to 
ensure that ethics laws and regulations are being followed. In the 
event of an ethics violation--for example, a review panelist failing to 
recuse himself/herself from the review of a project in which there may 
be a potential conflict of interest--the Grants Program Manager will 
stop the proceedings, and confer with an Employee Relations Officer as 
to the appropriate course of action.

                                 *****

Memorandum

To:   NLC

From: Associate Director, Business Services

Subject: Financial Assistance Evaluation Panels

    It has come to my attention that there are inconsistencies in how 
evaluation panels for financial assistance are managed. Henceforth, the 
following guidance will be used in addition to all other legal 
requirements when any evaluation panel is used. Unless specific 
permission is sought and approved, all panel members will be government 
employees.
Grants Manager or Technical Evaluation Panel Chair:

   1.   Establish the criteria for the award based on the authorizing 
            legislation and as included in the Funding Opportunity 
            Announcement.

   2.   Assign values to each of the criteria.

   3.   Select evaluation panel members with the expertise to provide 
            an informed judgment of the applications.

   4.   Prepare an evaluation sheet for each panel member.

   5.   Require that each evaluation be reviewed by a minimum of two 
            panel members.

   6.   Require each panel member to complete a Non-disclosure 
            Agreement prior to starting the evaluation process.

   7.   Require each panel member to sign an Ethics form prior to 
            starting the evaluation process.

   8.   Inform all panel members of their roles and responsibilities.

   9.   Attend all meetings of the panel to assure all applicable 
            ethics laws and regulations are followed.

  10.   Document the selection proceedings including the scoring of 
            each application.

  11.   Maintain the rating sheets in the grant files and apply the 
            Records Management standards for retention, archiving and 
            disposal.

Evaluator duties:

  1.  Review each application separately using the criteria written for 
            the award.

  2.  Sign the Non-disclosure and Ethics forms; identify any potential 
            conflicts if they occur.

  3.  Assign a rating based on the criteria and the evaluation sheet.

  4.  Participate in discussions regarding disparities in panel 
            members' ratings and reach a consensus on the rating.

  5.  Maintain confidentiality regarding the proposals, the proceedings 
            and the discussions leading to the decisions.

                                 ______
                                 

             Jon Jarvis Cases as requested by Rep. Labrador

Investigations

1. OI-CA-07-0297-I (W)        Opened 05/01/2007        Closed 04/16/
2009

    In April of 2007, Kevin and Nancy Lunny wrote to us requesting an 
investigation into the actions of Point Reyes National Seashore (PRNS) 
Superintendent Donald Neubacher. Specifically, the Lunny family, which 
owns and operates the Drakes Bay Oyster Company (DBOC) and the G Ranch, 
both located within the PRNS, alleged that Neubacher had undermined and 
interfered with the Lunny family's businesses and had slandered the 
family's name. Further, they believed there was a movement by Neubacher 
and local environmentalists to shut down the family's oyster farm by 
crippling the family financially. We opened an investigation shortly 
after receiving the Lunnys' allegations.
    Our investigation determined that PRNS published a report on Drakes 
Estero, where the Lunny family farms oysters, containing several 
inaccuracies regarding the source of sedimentation in the estero. After 
receiving complaints from Corey Goodman, a neurobiologist, NPS removed 
the report from its Web site on July 23, 2007, and 2 days later, it 
posted an ``acknowledgement of errors'' in its place. Our investigation 
determined that in this report and in a newspaper article, PRNS Senior 
Science Advisor Sarah Allen had misrepresented research regarding 
sedimentation in Drakes Estero completed in the 1980s by U.S. 
Geological Survey scientist Roberto Anima. In addition, we determined 
that she failed to (1) provide a copy of a germane e-mail message 
between Anima and herself in response to a FOIA request that 
specifically sought such correspondence and (2) stated in a public 
forum that NPS had over 25 years of seal data from Drakes Estero when 
in fact that was inaccurate.
    While Allen denied any intentional misrepresentation of Anima's 
work, our investigation revealed that Allen was privy to information 
contrary to her characterization of Anima's findings in the Sheltered 
Wilderness Report and other public releases, and she did nothing to 
correct the information before its release to the public.
    Additionally, Neubacher and Allen made concerted attempts to refute 
Kevin Lunny's disputed portrayal of oyster farming as beneficial for 
Drakes Estero. Our investigation revealed that although Neubacher 
intended to bring the potential negative effects of the DBOC operation 
to the public's eye to counter what he considered ``misinformation,'' 
in several instances he could have exercised better judgment and 
expressed NPS' position with greater clarity and transparency. Further, 
he exaggerated the Marine Mammal Commission's role in responding to 
DBOC's impact on the harbor seal population in Drakes Estero when he 
spoke before the Marin County Board of Supervisors (MCBS).
    Although the complainants provided numerous examples of what they 
perceived as disparate treatment by Neubacher, our investigation 
revealed no indication that Neubacher treated the Lunny family with any 
disparity regarding either of their businesses in the park. We found no 
indication that Neubacher was planning to shut DBOC down prior to 2012, 
when DBOC's Reservation of Use and Occupancy (RUO) expires. Further, we 
found that Neubacher did not have the authority to extend any RUO. In 
addition, an extension of DBOC's particular RUO would violate a 
congressional mandate that the oyster operation be removed as soon as 
the RUO expires in order to manage Drakes Estero as wilderness.
    Conversely, our investigation revealed that, until April 22, 2008, 
Kevin Lunny had been operating DBOC without a Special Use Permit since 
he bought the oyster operation in 2005 and had refused to sign a permit 
despite ongoing negotiations with PRNS, the Pacific West Region of the 
National Park Service (NPS), U.S. Department of the Interior (DOI), and 
the San Francisco Field Office of the DOI Solicitor's Office. 
Similarly, his parents had been operating the G Ranch without a signed 
Special Use Permit since it came up for renewal in 2004 despite efforts 
by PRNS to bring him into compliance with federal regulations. 
According to the Code of Federal Regulations, engaging in any business 
within a national park is prohibited without a ``permit, contract, or 
other written agreement with the United States.''
    We referred our investigative report to NPS Director Mary Bomar on 
June 21, 2008, for information only. No response was required.
    We also sent a Management Advisory (MA) to Director Bomar on 
December 2, 2008, relating our finding that the Point Reyes National 
Seashore's methods for peer review and standards for conveying 
information to the public were haphazard and ineffectual. We made a 
number of suggestions to improve that situation in the MA.
    On April 9, 2009, then Acting Director Daniel Wenk, responded to 
the suggestions in the MA, stating, in part that it agreed with some 
suggestions and had already taken actions to address the issues noted 
in the MA.

2. PI-PI-08-0508-I (W)        Opened 08/26/2008        Closed 03/17/
2009

    On August 22, 2008, the Department of the Interior, Office of 
Inspector General (DOI OIG), Program Integrity Division, received 
information from a confidential source alleging that there was a 
possible conflict of interest regarding a real estate transaction 
between Dave Uberuaga [Seller], Superintendent, Mount Rainier National 
Park (MRNP), and Peter and Erika Whittaker [Buyer], part owners of 
Rainier Mountaineering, Inc. (RMI), a concessioner at MRNP.
    During this investigation, we determined that Uberuaga originally 
bought the property in 1992 for $84,000, sold it in December 2002 for 
$425,000, and subsequently financed the sale of his property to 
Whittaker over the course of 63 months. Uberuaga was interviewed and 
denied that there was a quid pro quo based on the sale of the property 
to Whittaker and subsequently passed a polygraph examination regarding 
this issue. Based on the appearance of a conflict of interest, we 
reviewed several documents submitted by Uberuaga and determined that he 
made false statements or concealed material facts on his Office of 
Government Ethics (OGE) form 450; an e-mail he sent to the NPS 
reviewing official, who requested additional information of the nature 
of the transaction; and by signing the conflict of interest 
certification for MRNP's contract process.
    Our findings were presented to the United States Attorney's Office 
for the Western District of Washington. That office declined any 
prosecution of Uberuaga. The results of this investigation will be 
forwarded to the Director of the National Park Service for review and 
appropriate action.
    We referred our investigative report to NPS Director Mary Bomar on 
December 10, 2008, with a request that NPS respond to the findings in 
our report.
    On or about March 9, 2009, Jonathan Jarvis, then Director of the 
NPS Pacific West Region, reported that he had issued Uberuaga a written 
Letter of Reprimand on February 24, 2009.

                    Drakes Bay Oyster Company Cases

1. OI-CA-07-0297-I (W)        Opened 05/01/2007        Closed 04/16/
2009

    In April of 2007, Kevin and Nancy Lunny wrote to us requesting an 
investigation into the actions of Point Reyes National Seashore (PRNS) 
Superintendent Donald Neubacher. Specifically, the Lunny family, which 
owns and operates the Drakes Bay Oyster Company (DBOC) and the G Ranch, 
both located within the PRNS, alleged that Neubacher had undermined and 
interfered with the Lunny family's businesses and had slandered the 
family's name. Further, they believed there was a movement by Neubacher 
and local environmentalists to shut down the family's oyster farm by 
crippling the family financially. We opened an investigation shortly 
after receiving the Lunnys' allegations.
    Our investigation determined that PRNS published a report on Drakes 
Estero, where the Lunny family farms oysters, containing several 
inaccuracies regarding the source of sedimentation in the estero. After 
receiving complaints from Corey Goodman, a neurobiologist, NPS removed 
the report from its Web site on July 23, 2007, and 2 days later, it 
posted an ``acknowledgement of errors'' in its place. Our investigation 
determined that in this report and in a newspaper article, PRNS Senior 
Science Advisor Sarah Allen had misrepresented research regarding 
sedimentation in Drakes Estero completed in the 1980s by U.S. 
Geological Survey scientist Roberto Anima. In addition, we determined 
that she failed to (1) provide a copy of a germane e-mail message 
between Anima and herself in response to a FOIA request that 
specifically sought such correspondence and (2) stated in a public 
forum that NPS had over 25 years of seal data from Drakes Estero when 
in fact that was inaccurate.
    While Allen denied any intentional misrepresentation of Anima's 
work, our investigation revealed that Allen was privy to information 
contrary to her characterization of Anima's findings in the Sheltered 
Wilderness Report and other public releases, and she did nothing to 
correct the information before its release to the public.
    Additionally, Neubacher and Allen made concerted attempts to refute 
Kevin Lunny's disputed portrayal of oyster farming as beneficial for 
Drakes Estero. Our investigation revealed that although Neubacher 
intended to bring the potential negative effects of the DBOC operation 
to the public's eye to counter what he considered ``misinformation,'' 
in several instances he could have exercised better judgment and 
expressed NPS' position with greater clarity and transparency. Further, 
he exaggerated the Marine Mammal Commission's role in responding to 
DBOC's impact on the harbor seal population in Drakes Estero when he 
spoke before the Marin County Board of Supervisors (MCBS).
    Although the complainants provided numerous examples of what they 
perceived as disparate treatment by Neubacher, our investigation 
revealed no indication that Neubacher treated the Lunny family with any 
disparity regarding either of their businesses in the park. We found no 
indication that Neubacher was planning to shut DBOC down prior to 2012, 
when DBOC's Reservation of Use and Occupancy (RUO) expires. Further, we 
found that Neubacher did not have the authority to extend any RUO. In 
addition, an extension of DBOC's particular RUO would violate a 
congressional mandate that the oyster operation be removed as soon as 
the RUO expires in order to manage Drakes Estero as wilderness.
    Conversely, our investigation revealed that, until April 22, 2008, 
Kevin Lunny had been operating DBOC without a Special Use Permit since 
he bought the oyster operation in 2005 and had refused to sign a permit 
despite ongoing negotiations with PRNS, the Pacific West Region of the 
National Park Service (NPS), U.S. Department of the Interior (DOI), and 
the San Francisco Field Office of the DOI Solicitor's Office. 
Similarly, his parents had been operating the G Ranch without a signed 
Special Use Permit since it came up for renewal in 2004 despite efforts 
by PRNS to bring him into compliance with federal regulations. 
According to the Code of Federal Regulations, engaging in any business 
within a national park is prohibited without a ``permit, contract, or 
other written agreement with the United States.''
    We referred our investigative report to NPS Director Mary Bomar on 
June 21, 2008, for information only. No response was required.
    We also sent a Management Advisory (MA) to Director Bomar on 
December 2, 2008, relating our finding that the Point Reyes National 
Seashore's methods for peer review and standards for conveying 
information to the public were haphazard and ineffectual. We made a 
number of suggestions to improve that situation in the MA.
    On April 9, 2009, then Acting Director Daniel Wenk, responded to 
the suggestions in the MA, stating, in part that it agreed with some 
suggestions and had already taken actions to address the issues noted 
in the MA.

2. OI-HQ-11-0052-R        Opened 11/09/2010        Closed 06/06/2011

    We received information from Corey Goodman reporting that in 2007, 
the Point Reyes National Seashore (PRNS), National Park Service (NPS), 
set up a camera overlooking Drake's Estero within PRNS to record Drakes 
Bay Oyster Company (DBOC) employees disturbing harbor seals without 
telling the OIG at the time when OIG had an ongoing investigation 
concerning DBOC. Goodman alleged that NPS kept the camera secret 
because photos taken disproved their contention that DBOC employees 
disturbed the harbor seals.
    We referred the complaint to NPS Director Jonathan Jarvis on 
November 9, 2010, with a request that he respond to the allegations.
    On May 2, 2011, Peggy O'Dell, NPS Deputy Director, responded that 
NPS requested the DOI Office of the Solicitor (SOL) to review the 
complaint. SOL reported that it found no criminal violations or 
scientific misconduct; however, it also found that NPS employees made 
mistakes that may have eroded public confidence in the way NPS 
addressed the matter. NPS did not take any further action.

                         Management Advisories

PI-PI-09-0443-I      Issued January 28, 2010      Response Received May 
7, 2010

OI-NM-10-0299-I     Issued May 27, 2010         Response Received July 
8, 2010

PI-PI-10-0690-I      Issued February 3, 2011      Response Received 
August 1, 2011

OI-PI-14-0695-I      Issued Nov. 16, 2015      Response Received Feb. 
18, 2016
    (Distribution of Letter and Declarations sent to Secretary Sally 
Jewell)

OI-PI-14-0695-I      Issued Nov. 16, 2015      Response Received Feb. 
18, 2016
    (Hiring of Bryan Edwards)

                                 ______
                                 

    Mr. Labrador. But you, Mr. Keable, believe that they have 
held some people accountable?
    Mr. Keable. Yes, sir. The Department has followed due 
process in following through with each of these Inspector 
Generals' investigations, assessing how and whether to hold 
people accountable.
    Mr. Labrador. And holding them accountable, according to 
you, is taking some jobs away from them. But no one has been 
fired because of these actions, correct?
    Mr. Keable. No, sir. Holding people accountable is 
following due process. It is looking at the IG investigations 
and assessing how we can fashion charges that can be sustained 
if litigated.
    Mr. Labrador. Are you not bothered by the pattern of 
unethical behavior?
    Mr. Keable. I believe the Department has a culture of 
compliance. I believe that----
    Mr. Labrador. I am not going into that. Are you not 
bothered by this pattern of unethical behavior?
    Mr. Keable. I believe the Department has a culture of 
compliance.
    Mr. Labrador. Thank you for not responding to the question. 
That is really outrageous.
    Mr. Gohmert. The Chair recognizes the gentleman from 
Georgia, Mr. Hice, for 5 minutes.
    Dr. Hice. Thank you, Mr. Chairman. I appreciate you calling 
today's hearing on examining this culture of corruption at the 
Department of the Interior. I certainly regret that a few 
political appointees at the Department have taken advantage of 
public service for their own personal gain.
    Mr. Keable, let me begin with you. Obviously, the purpose 
of this hearing is to stress the importance of ethical behavior 
and accountability at the Department of the Interior. Right at 
the heart of that is transparency.
    It is extremely important for the Inspector General to 
report its findings to Congress in a timely manner. Likewise, 
it is important that the Department, as a whole, respect the 
fact that it is impossible to hold people accountable without 
fostering a culture of openness and transparency.
    First question. Do you believe, and do you agree, that 
transparency is a very important part of accountability?
    Mr. Keable. Yes, sir.
    Dr. Hice. Well, then, Mr. Keable, I hope you can explain 
why the Solicitor's Office is stonewalling a number of FOIA 
requests. As you know, FOIA gives the public the right to 
access certain types of Federal agency information. Just within 
the past 2 weeks, the Office of Government Information Services 
sent a letter to you requesting half a dozen delayed FOIA 
requests. They actually said in that letter, ``Over the last 
few months OGIS has contacted the DOI Office of the Solicitor, 
seeking information about the status, including the tracking 
number for these appeals. But we have received no substantive 
response to these inquiries.''
    So, can you tell this subcommittee again how you take 
transparency and accountability so seriously?
    Mr. Keable. Sir, as it happens, I have a meeting scheduled 
with OGIS tomorrow to talk about those matters. And I would say 
that the Department's FOIA program does its level best to 
provide timely services to the public who are seeking 
information before the Department, and we----
    Dr. Hice. Does the fact that we are having a hearing today 
have any impact on why you happen to be having a meeting 
tomorrow?
    Mr. Keable. No, sir. This hearing is about ethics 
compliance and OIG reports. It has nothing to do with 
transparency.
    Dr. Hice. Well then, can you explain why your office has 
been ignoring these FOIA requests?
    Mr. Keable. Sir, I don't believe our office has been 
ignoring these FOIA requests. I think that we have been 
processing FOIA requests as quickly as we can with the 
resources we have.
    Dr. Hice. Well, that is not the feeling of OGIS. They feel 
very much ignored; and I think your excuse is, quite frankly, 
rather lame.
    So, let me ask you this. Are you stating today in testimony 
that you will make it a commitment to deal with these FOIA 
requests?
    Mr. Keable. Yes, sir.
    Dr. Hice. Will you, likewise, send a copy to this 
subcommittee of your response to OGIS?
    Mr. Keable. If I have a written response. As I said, I have 
a meeting scheduled tomorrow with the Acting Director at OGIS.
    Dr. Hice. We would like the information from that meeting. 
We want to make sure that these requests are being taken care 
of. Will you commit to do that?
    Mr. Keable. I am happy to follow up with the committee.
    Dr. Hice. OK. Ms. Kendall, I understand that you recently 
changed your policy and decided to only give the Department 30 
days to review a report before releasing it publicly. What is 
the reasoning behind that decision?
    Ms. Kendall. Part of the reasoning was that we found that 
giving 90 days was sort of both not enough time and too much 
time--not enough time, if the Department needed to take 
administrative action against an employee, because that can 
take a fair amount of time, just procedurally; but it was too 
much time, in our view, for getting the information both to 
Congress and out to the public.
    So, we changed our process to issue our reports and post 
them on the Web site within 30 days of providing them to the 
Department, whether we have a response from the Department or 
not.
    Dr. Hice. Have you seen a change in how the Department 
responds?
    Ms. Kendall. To a certain extent, I would say, yes. In a 
couple of instances we have had much quicker responses. But I 
would also say that in others, where the need to take the time 
to make sure the administrative action is proper, we simply 
issue the report and provide it to Congress; and they continue 
to take the administrative action and then ultimately report it 
back to us.
    Dr. Hice. Thank you, Mr. Chairman.
    Mr. Gohmert. I thank the gentleman. We will commence a 
second round of questioning.
    Ms. Kendall, when the current Administration went against 
your advice and reduced the authority of the Ethics Office, and 
shifted back that authority under the supervision of Mr. 
Keable, did you say anything about that? Did you have any kind 
of response expressing concerns?
    Ms. Kendall. Mr. Chairman, this happened quite some time 
ago. Mr. Devaney was still the Inspector General.
    Mr. Gohmert. This was when you were Deputy, though, 
correct?
    Ms. Kendall. Right. Yes. Oh, no, and I am aware of the 
time. The Office of the Solicitor and I think the Department 
may have had representatives and did brief us on this.
    The complicating factor, and what we found back in 2004, 
was the Ethics Office was outside of the Solicitor's Office but 
it was not staffed by attorneys; and the Solicitor's Office had 
an attorney in its office that would provide sort of ad hoc 
ethics advice, but it was not binding. Therefore, our 
recommendation was really to empower the Ethics Office.
    That it was placed in the Office of the Solicitor, in my 
view and, at the time, Mr. Devaney's view, did not diminish its 
power; it just put it over where it could be overseen by 
attorneys and staffed by attorneys.
    Mr. Gohmert. Well, we know, as Mr. Keable indicated, that 
Director Jarvis suffered the excruciating punishment of being 
removed from being in charge of the Ethics Office, which I have 
never heard anybody that ever enjoyed being in charge of an 
ethics office. It is about as thankless a job as you can have--
but we are always grateful when somebody with a conscience is 
in charge.
    But Director Jarvis is still at the top of the National 
Park Service. Let me ask you about Mr. Reid at Yellowstone. He 
was the Chief Ranger and the Chief Law Enforcement Officer 
there. What is he doing now?
    Ms. Kendall. He is the Superintendent at a park whose name 
I am blanking on right now.
    Mr. Gohmert. Well, Superintendent is an elevated title from 
where he was before, isn't it?
    Ms. Kendall. It certainly has the appearance of an 
elevation. Yes, sir.
    Mr. Gohmert. I mean he was Chief Ranger before, and then he 
goes to, as I understand, the Devils Tower National Monument.
    Ms. Kendall. Yes, that is correct.
    Mr. Gohmert. Which is, I understand, a plum assignment 
within the Park Service, an amazing place. That is not exactly 
a punishment, either. And I would bet that if you asked Mr. 
Jarvis, ``Which of your responsibilities previously would you 
like to get rid of ?,'' it would be getting rid of the Ethics 
Office.
    There are so many other issues, but I want to go back and 
be clear for the record. With regard to Director Jarvis' 
statement that it was Eastern National that made the request 
for him to write the book, and he failed to disclose the 
request he made of Eastern National; wouldn't you characterize 
that as his lying to the Secretary directly?
    Ms. Kendall. It was certainly not true. You are right.
    Mr. Gohmert. Are you aware of anyone in any supervisory 
capacity that has lied to the Secretary of the Interior that is 
still in their same position?
    Ms. Kendall. I am not aware of anyone else who has lied or 
is in the same position.
    Mr. Gohmert. Well, Director Jarvis admitted to your team, 
as I understand it, he had been in trouble ``many, many times'' 
for not asking permission. Is that your understanding?
    Ms. Kendall. That may well be in our report, sir. I am not 
familiar with that statement.
    Mr. Gohmert. Do you have any recommendations, at this time, 
based on what you have found through your investigations as to 
who should be in charge of ethics at the Department of the 
Interior?
    Ms. Kendall. Certainly the Designated Agency Ethics 
Official, who is appointed and is in the Office of the 
Solicitor. The other thing that we have engaged in discussion 
with her about is providing ethics training to all DOI 
employees, not just the filers of the public and the 
confidential disclosure forms.
    Mr. Gohmert. OK, thank you. At this time, I recognize, 
again, the Ranking Member from Missouri, Mr. Clay, for 5 
minutes.
    Mr. Clay. Thank you, Mr. Chairman.
    Ms. Kendall, your office investigated the incident at the 
Grand Canyon?
    Ms. Kendall. Yes, sir.
    Mr. Clay. And you identified over 30 employees who had 
experienced or witnessed incidents of sexual harassment from 
boatmen working in the river district. These findings were 
extremely troubling to me and my fellow committee members, and 
we signed a bipartisan letter to Director Jarvis urging the 
Park Service to expand this investigation to the entire agency. 
I do hope the agency takes this issue very seriously.
    But since we are here, I would like to explore this 
assertion from my colleagues on the other side of the aisle 
that any ethical lapses at Interior are a product of what they 
think is a flawed Department-level Ethics Office structure.
    So, Mr. Keable, can you tell me what responsibility does 
the Ethics Office have in enforcing ethical conduct and 
behavior in the workplace?
    Mr. Keable. Certainly. Let me start by saying that, with 
respect to the 2004 Office of Inspector General report to which 
Members have referred, that report had 13 specific 
recommendations, and the Department has met all 13 of them.
    The Designated Agency Ethics Official heads the Ethics 
Office of the Department. She is a direct report to me. She 
manages a staff of, I believe it is 10 people, 6 of whom are 
lawyers. They give ethics advice and counsel to employees in 
the Office of the Secretary. They oversee the bureau ethics 
programs. They provide training to employees across the 
Department.
    Mr. Clay. What type of training, sensitivity training or 
ethics training?
    Mr. Keable. They provide ethics training. They train to the 
standards of conduct for employees of the executive branch. 
They also train on Hatch Act-related issues.
    Mr. Clay. In this case, let's pretend that the victims of 
the boatmen, who sexually harassed women in the river district, 
decided to seek ethical advice. Would they go to the Solicitor 
General or the DOI?
    Mr. Keable. Sir, the bureaus each manage their own ethics 
program; so if they were seeking ethics advice, they would go 
to the bureau ethics officials.
    Mr. Clay. OK. So the choice of which office at DOI to 
report to sounds pretty much irrelevant in the case of one of a 
very serious problem the Department is currently faced with. 
From my perspective, it seems safe to say that restructuring 
the Department-level Ethics Office may not be the only answer 
to resolving issues of misconduct in Interior. Would you agree?
    Mr. Keable. Yes, sir.
    Mr. Clay. OK. In your opinion, could the National Park 
Service be doing more to attack the culture in the now-defunct 
river district that led to the sexual harassment and assault of 
victims----
    Mr. Keable. Sir, it is also my understanding that the Park 
Service is addressing those challenges.
    Mr. Clay. OK. Could they be doing anything else to 
understand whether there is a similar problem in other sectors 
of the Park Service? How can you help them identify problem 
areas?
    Mr. Keable. My understanding is that the Park Service is 
looking at those kinds of questions.
    Mr. Clay. OK, and they just started doing that?
    Mr. Keable. Well, I believe what they have done is they 
have looked at the IG report of the Grand Canyon and they are 
assessing how to address procedural issues to ensure that those 
kinds of situations do not repeat.
    Mr. Clay. Do you think it is Department-wide? Is there a 
culture there, or----
    Mr. Keable. No, sir. I do not. I think the Park Service is 
taking very seriously the information in the IG report on the 
Grand Canyon and are very seriously addressing the issues 
highlighted by that report.
    Mr. Clay. So, from what you know, this is an isolated 
incident?
    Mr. Keable. From what I know. Yes, sir.
    Mr. Clay. OK, all right. Thank you, Mr. Chairman. I yield 
back.
    Mr. Gohmert. Since we are so limited in Members, I would 
like to recognize myself.
    Ms. Kendall, in your written statement--and I realize 5 
minutes is so limiting that you did not have time to cover 
everything that you provide in your written statement. It is 
part of the record.
    But you had stated, ``DOI [Department of the Interior] does 
not do well in holding accountable those employees who violate 
laws, rules, and regulations. We see too few examples of senior 
leaders making the difficult decision to impose meaningful 
corrective action and hold their employees accountable. Often, 
management avoids discipline altogether and attempts to address 
misconduct by transferring the employee to other duties or to 
simply counsel the employee. The failure to take appropriate 
action is viewed by other employees as condoning misbehavior.'' 
That was in your written remarks. You do stand by that, 
correct?
    Ms. Kendall. Yes, sir, I do.
    Mr. Gohmert. You mentioned that you were briefed on a 
matter in which an employee was detailed to another agency at 
the expense of Interior, in lieu of using proper performance 
management progressive discipline to correct performance and 
conduct issues. How did you find out about that?
    Ms. Kendall. Yes. This is in an ongoing investigation, but 
the individual who was detailed actually came to us with a 
complaint, or actually through another employee, about the 
manager of that unit.
    During the course of our investigation, we learned that the 
manager had complaints of his own about the complaining 
employee, both in terms of conduct and in terms of performance; 
and rather than addressing the performance and the conduct 
issues straightaway, he chose to use a detail to another 
agency.
    Mr. Gohmert. All right. And just to make clear, going back 
to the book deal with Eastern National, this contractor with 
the Park Service--so, Director Jarvis not only misrepresented, 
I believe you said, the situation to the Secretary of the 
Interior, but your team of investigators asked him specifically 
about that, didn't they?
    Ms. Kendall. My recollection is that they did, yes.
    Mr. Gohmert. And the response was?
    Ms. Kendall. It was----
    Mr. Gohmert. Basically the same as was to the Secretary of 
the Interior, that he did not request it, Eastern National 
requested the book, correct?
    Ms. Kendall. I believe so, yes.
    Mr. Gohmert. Yes. So it was misleading, misrepresentation, 
or an outright lie, even to your own team, correct?
    Ms. Kendall. Correct.
    Mr. Gohmert. Do you know who that was on your team that 
questioned him about this?
    Ms. Kendall. I remember one of the agents, yes. I do not 
remember both the agents.
    Mr. Gohmert. I have no further questions.
    Mr. Clay. I do.
    Mr. Gohmert. Mr. Clay is recognized.
    Mr. Clay. Mr. Keable, the implication from my colleagues is 
that restructuring the Ethics Office is the solution to the 
ethics problem at the DOI. But a commitment to improving the 
ethical culture with concrete changes by this Administration 
has already yielded clear results.
    For example, the Minerals Management Service, once plagued 
by scandal, was reorganized by Secretarial Order, which 
reassigned the responsibilities of the agency to a new Bureau 
of Ocean Energy Management, Bureau of Safety and Environmental 
Enforcement, and the Office of Natural Resources Revenue. Has 
the reorganization helped combat the corruption that was once 
so rampant?
    Mr. Keable. Sir, I believe that those three organizations 
are well-run organizations, if that is what you are asking.
    Mr. Clay. Yes. Has it changed the culture of the agency?
    Mr. Keable. I believe there is a healthy culture in those 
bureaus and offices.
    Mr. Clay. Well, can you point out any other changes that 
the Department has implemented?
    Mr. Keable. Sir, going back to that 2004 IG report, as I 
said earlier, the Department has implemented all 13 of the 
specific recommendations in that report, starting with the 
point that the Inspector General made that there needs to be a 
singular voice of authority on ethics in the Department.
    Prior to that report, there were two components in the 
Department that were providing information regarding ethics. 
The Ethics Office, at that time, was a small organization in 
the Office of the Secretary, and there were lawyers in the 
Solicitor's Office in the Division of General Law who, when 
legal issues came up, gave legal advice.
    Even before that IG report came out, the Department 
established the Ethics Office in the Solicitor's Office, and we 
started staffing that office with attorneys. As I said earlier, 
we now have 10 employees in that organization, 6 of them 
lawyers.
    There was never a point at which the Ethics Office was a 
stand-alone organization in the Department of the Interior. It 
was initially, as I said, an organization within the Office of 
the Secretary. In 2003, we moved it into the Solicitor's 
Office, pursuant to a Secretary's Order, and then we enshrined 
that in the departmental manual.
    Mr. Clay. Just a final question. In your testimony, you 
mentioned that the Department Ethics Office has been recognized 
by the Office of Government Ethics. Can you go into more detail 
about that recognition?
    Mr. Keable. Certainly. Our current Designated Agency Ethics 
Official started in the Department in 2007. We hired her from 
the Defense Department. She was highly recommended with a 
tremendous background in ethics. Specifically, the Director of 
the Office of Ethics gave her very high recommendations when we 
hired her.
    From 2008 to 2011, the Department's ethics program received 
a lot of recognitions. Those recognitions stopped when OGE 
stopped giving awards. But, nevertheless, it is the same 
leadership team in managing the Ethics Office now that received 
these awards.
    For example, they were recognized for outstanding 
achievement in developing education and communications products 
that fostered an ethical climate in 2008. They were recognized 
for outstanding achievement in managing the ethics program in 
2010, for excellence and innovation in 2011, for program 
excellence and innovation in ethics events in 2011, for program 
excellence and innovation for a product that gives rise to 
awareness, and others.
    So again, this is the same ethics team in place now in the 
Solicitor's Office that was in place in the Solicitor's Office 
when they were receiving these awards at a time when the Office 
of Government Ethics issued awards.
    Mr. Clay. Thank you for that response. Sounds like a job 
well done.
    And I will yield back the balance of my time.
    Mr. Gohmert. We thank the witnesses for being here. We 
appreciate your testimony. We hope that in the future the issue 
of ethics will be one not so much that gets awards, but 
actually deals with ethical behavior and corrects it.
    Each side will have 5 additional days in which to provide 
additional material for the record.
    And I do want to point out that ethics problems normally 
come from the top. Department senior leadership needs to set a 
good example, and we hope that is what will happen.
    I would ask unanimous consent that the following items be 
submitted into the hearing record: a letter from Mrs. Dingell 
and myself to Secretary Jewell regarding the IMARS system dated 
March 24, 2016; the response to that letter from Deputy 
Secretary Connor dated April 29, 2016; and a handwritten note 
from Director Jarvis to Secretary Jewell dated June 11, 2015.

    [The information follows:]

                   U.S. House of Representatives,  
                        Committee on Natural Resources,    
              Subcommittee on Oversight & Investigations,  
                                             Washington, DC

                                                 March 24, 2016    

Hon. Sally Jewell, Secretary
U.S. Department of the Interior
1849 C Street NW
Washington, DC 20240

    Dear Secretary Jewell:

    On March 17, 2016, the Subcommittee on Oversight and Investigations 
of the Committee on Natural Resources held a hearing to shed light on 
the Department of the Interior's (``DOI'') Incident Management, 
Analysis, and Reporting System (``IMARS''). We write to request more 
information about the implementation of IMARS, DOI's law enforcement 
database.
    The Department has been in the process of implementing IMARS since 
2002--and has spent in excess of $65 million on the program \1\--but it 
is still not fully functional and has not been fully deployed 
throughout DOI. The Department's inability to implement IMARS after 
expending so much time and resources on the project is troubling.
---------------------------------------------------------------------------
    \1\ GAO reports that DOI had spent $64.75 million on IMARS through 
September 2012. U.S. Gov't Accountability Office, GAO-13-524, 
Information Technology: Additional Executive Review Sessions Needed to 
Address Troubled Projects 17 (2013).
---------------------------------------------------------------------------
    In order for the Oversight and Investigations Subcommittee to 
obtain a better understanding of the costs associated with IMARS, as 
well as DOI's failure to fully implement the system, it is requested 
that the following information be provided no later than 5:00 p.m. on 
Thursday, April 7:

  1.  Please provide the total spending associated with IMARS from 2002 
            to the present.

  2.  DOI's Deputy Assistant Secretary for Public Safety, Resource 
            Protection, and Emergency Services testified that issues 
            involving the FWS's implementation of IMARS are currently 
            being evaluated, and also that DOI would ``continue to work 
            with the FWS to identify solutions'' regarding 
            implementation of IMARS. It has been fourteen years since 
            DOI first began to implement the system. What potential or 
            possible solutions for FWS's implementation of IMARS have 
            been identified and are being considered?
    Please deliver your response to the House Committee on Natural 
Resources at 1324 Longworth House Office Building and 1329 Longworth 
House Office Building. Please have your staff contact Rob Gordon and 
Vic Edgerton of the Committee staff with any questions.

            Sincerely,

                                             Louie Gohmert,
                                                          Chairman.

                                            Debbie Dingell,
                                                    Ranking Member.

                                 ______
                                 

              The Deputy Secretary of the Interior,
                                             Washington, DC

                                                     April 29, 2016

Hon. Louie Gohmert, Chairman,
House Subcommittee on Oversight and Investigations,
Washington, DC 20515.

    Dear Mr. Chairman:

    Thank you for your letter dated March 24, 2016, to Secretary Jewell 
regarding the Department of the Interior's (Department) Incident 
Management Analysis Report System (IMARS). Secretary Jewell asked that 
I respond to you on her behalf.
    This supplements the information I provided on March 11, 2016, in 
response to Chairman Rob Bishop's request letter dated February 23, 
2016. Since 2002, the Department has obligated $49,534,697.86 on the 
implementation and operation of IMARS, which includes amounts necessary 
for personnel, information technology (IT) equipment and hardware, rent 
for physical space, hosting of system data, maintaining the software 
environment, and training law enforcement officers who use the IMARS 
system.
    As I explained in my previous letter to Chairman Bishop, the 
Department is evaluating concerns raised by the U.S. Fish and Wildlife 
Service (FWS) as to whether IMARS can fully meet its law enforcement 
needs. In your letter, you asked me to elaborate on the Department's 
work with FWS to address these concerns and integrate FWS into the 
Department's IMARS solution while ensuring that FWS's unique law 
enforcement needs are met. The issues and challenges are technical in 
nature, and the Department's Office of Law Enforcement and Security, 
Office of the Chief Information Officer (OCIO), and FWS are working 
together to craft an effective solution. We will certainly keep the 
Subcommittee apprised as we work through these issues and make 
decisions over the coming months.
    We appreciate your interest in this matter. If you or your staff 
have any questions, please contact Mr. Jason Powell.
    A similar letter is being sent to Representative Debbie Dingell, 
Ranking Member of the Subcommittee on Oversight and Investigations, who 
cosigned your letter.

            Sincerely,

                                          Michael L. Connor
                                 ______
                                 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                
                                 
    Mr. Gohmert. The members of the committee may have some 
additional questions for you. They would need to be submitted 
in writing, and we would ask that you respond to those. Under 
Committee Rule 4(h), the hearing record will then be held open 
for 10 additional business days for the responses after the 
questions are submitted.
    If there is no further business, and without objection, 
those entries were made to the record, and the committee stands 
adjourned.
    [Whereupon, at 3:53 p.m., the subcommittee was adjourned.]

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

  1.  An investigatory report issued by the Department of the 
            Interior's Office of the Inspector General 
            concerning the conduct of Deputy Secretary J. 
            Steven Griles. PI-SI-02-0053-I Report of 
            Investigation.

  2.  An investigatory report issued by the Department of the 
            Interior's Office of the Inspector General 
            concerning the conduct of Mr. Gregory W. Smith, 
            Program Director of the Royalty in Kind Program, 
            Mineral Revenue Management, Mineral Management 
            Service in Lakewood, Colorado. (August 2008)

  3.  A Letter from the Office of Government Information 
            Services addressed to [Name Redacted] regarding the 
            status of their Freedom of Information Act (FOIA) 
            request to the Fish and Wildlife Service. (March 3, 
            2016)

                                 <all>
</pre></body></html>
